CERTIFICATE OF COMPLIANCE
No. 20-1155
IN THE

JONAS DAVID NELSON,
Petitioner,
v.
STATE OF MINNESOTA,
Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae The Rutherford Institute in Support of Petitioner contains 4,059 words,
excluding the parts of the Brief that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 24, 2021.

/s/ Lyle D. Kossis
Lyle D. Kossis

Counsel of Record

MCGUIREWOODS LLP
Gateway Plaza
800 East Canal Street
Richmond, VA 23219
(804) 775-4703
lkossis@mcguirewoods.com

